September 30, 2002

JOHN A. RAPP
SENIOR VICE PRESIDENT, OPERATIONS

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

THOMAS G. DAY
VICE PRESIDENT, ENGINEERING

SUBJECT: 	 Audit Report – Use of Noncompetitive Contracting Process for Tabbing
           Systems Purchases (Report Number CA-AR-02-005)

This report presents the results of our audit of the use of the noncompetitive
contracting process to purchase tabbing systems. We initiated this effort as a
result of the survey phase of the Noncompetitive Contracting Practices Audit
(Project Number 01HA032CA001).

The audit revealed that the noncompetitive purchasing process was not the most
effective method for purchasing tabbing systems. Specifically, Postal Service officials
provided justifications that were not valid to support the noncompetitive purchases, and
purchases were not consolidated to ensure quantity discounts. This occurred because
Postal Service officials did not conduct adequate market research and did not consult
automation equipment engineers regarding alternative tabbing systems, field testing,
and safety matters before purchasing the systems. Additionally, the noncompetitive
purchasing policy does not require purchasing offices to consolidate purchases to take
advantage of quantity discounts. As a result, the Postal Service paid approximately
$7.2 million more than they would have if they purchased comparable competitive
tabbing systems and lost the opportunity to take $130,000 in quantity discounts.

We also found that 30 of the 83 tabbing systems purchased were not being used or
were underutilized. This occurred because Postal Service officials did not perform a
thorough needs analysis before purchasing the equipment and projections in the
Decision Analysis Reports were not supported or verified. Consequently, the Postal
Service will not achieve projected returns on investment.

We provided management with five recommendations that will improve the
noncompetitive process and resolve the issues regarding unused and underutilized
tabbing systems. Management agreed with the recommendations and has initiated
appropriate actions to address them. Management’s comments and our evaluation of
these comments are included in this report.

The Office of Inspector General (OIG) considers recommendations 1 through
5 significant and, therefore, requires OIG concurrence before closure. Consequently,
the OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Lorie Siewert,
director, Contracts and Facilities, at (651) 855-5856, or me at (703) 248-2300.



John M. Seeba
Assistant Inspector General
 for Financial Management

Attachment

cc: Susan M. Duchek
Use of Noncompetitive Contracting Process for                     CA-AR-02-005
 Tabbing Systems Purchases



                                   TABLE OF CONTENTS
Executive Summary                                                     i

Part I

Introduction                                                          1

   Background                                                         1

   Objective, Scope, and Methodology                                  2

   Prior Audit Coverage                                               2


Part II

Audit Results                                                         3


   Noncompetitive Process Not Effective                               3

   Recommendations                                                    7

   Management’s Comments                                              7

   Evaluation of Management’s Comments                                8


   Tabbing Systems Unused and Underutilized                           9

   Recommendations                                                   11

   Management’s Comments                                             11

   Evaluation of Management’s Comments                               11


Appendix. Management’s Comments                                      12





                                         Restricted Information
Use of Noncompetitive Contracting Process for                                      CA-AR-02-005
 Tabbing Systems Purchases


                                  EXECUTIVE SUMMARY
 Introduction                  This report presents the results of our audit of the use of
                               the noncompetitive contracting process to purchase tabbing
                               systems. We initiated this effort as a result of the survey
                               phase of the Noncompetitive Contracting Practices Audit.
                               The objective was to determine whether the noncompetitive
                               purchasing process was effective in purchasing tabbing
                               systems.

 Results in Brief              The use of the noncompetitive purchasing process was not
                               the most effective method for purchasing tabbing systems.
                               Specifically, Postal Service officials provided justifications
                               that were not valid to support the noncompetitive
                               purchases, and purchases were not consolidated to ensure
                               quantity discounts. As a result, the Postal Service paid
                               approximately $7.2 million more than they would have if
                               they purchased comparable competitive tabbing systems
                               and lost the opportunity to take $130,000 in quantity
                               discounts.

                               We also found that 30 of the 83 tabbing systems purchased
                               were not being used or were underutilized. Specifically,
                               11 tabbing systems were not being used and 19 were
                               processing less than 50 percent of projected volumes.

                               Since our audit, the Postal Service has reorganized its
                               purchasing organization and issued a management
                               instruction that should correct repetitive and individual
                               noncompetitive buying identified in this report.

 Summary of                    We provided five recommendations that will improve the
 Recommendations               noncompetitive process and resolve the issues regarding
                               unused and underutilized tabbing systems. Specifically, we
                               recommended purchase teams ensure that justifications
                               provided in support of noncompetitive purchases are valid
                               and purchases are consolidated in order to take advantage
                               of available quantity discounts. We also recommended
                               removal of the tabbing system from the Engineering
                               Supported Catalog of Approved Products, performance of
                               needs analyses, and redeployment of tabbing systems.
                               Further, we recommended that approving managers ensure
                               that the assumptions in Decision Analysis Reports are
                               independently verified.




                                                    i
                                         Restricted Information
Use of Noncompetitive Contracting Process for                                    CA-AR-02-005
 Tabbing Systems Purchases


 Summary of                    Management agreed with the recommendations in the
 Management’s                  report and agreed that the $130,000 in lost quantity
 Comments                      discounts was properly identified. Management indicated
                               they would disseminate the recommendations to the
                               appropriate managers for implementation. Additionally,
                               management has begun redeploying tabbing systems that
                               are unused and underutilized and will continue redeploying
                               unused and underutilized systems after reviewing utilization
                               and potential opportunities to capture candidate mail.
                               Further, management will require approving officials to
                               ensure that assumptions included in the Decision Analysis
                               Reports are independently verified.

                               Management, however, does not agree with our finding that
                               the noncompetitive process was ineffective for the first
                               27 systems purchased and that the Postal Service paid
                               approximately $7.2 million more than they would have if
                               they purchased comparable competitive tabbing systems.
                               Management’s comments, in their entirety, are included in
                               the appendix of this report.

 Overall Evaluation of         Management’s actions, taken or planned, are responsive to
 Management’s                  the recommendations. Regarding management’s
 Comments                      comments on the finding, the OIG believes the audit results
                               support the assertion that the noncompetitive process was
                               ineffective for all 83 systems purchased and that the Postal
                               Service could have saved approximately $7.2 million.




                                                    ii
                                         Restricted Information
Use of Noncompetitive Contracting Process for                                               CA-AR-02-005
 Tabbing Systems Purchases


                                        INTRODUCTION
 Background	                   The Postal Service identified a growing trend in the mailing
                               industry to reduce costs by producing mailpieces that
                               consist of folded or bound sheets of paper. However,
                               because the mail is open ended, it cannot be accelerated
                               quickly into an automated feed system. Loose pages tend
                               to open during high-speed belt transport, resulting in jams
                               and damage to both mail and mail processing equipment.
                               The Postal Service identified tabbing systems as an
                               opportunity to upgrade this mail to automation capability.




                               Tabbing system on plant floor at a Processing and Distribution Center

                               The tabbing system places a translucent tab on the leading
                               edge of a piece of mail that is open-ended such as double
                               folded postcards, fliers, and booklets. With the tab in place,
                               mail that previously would be torn or jammed can be
                               handled by high-speed automation equipment all the way to
                               delivery point sequence. This process eliminates repeated
                               manual handling of mailpieces.

                               Over a 3-year period, from September 1997 through
                               September 2000, the Postal Service issued
                               43 noncompetitive contracts totaling approximately
                               $11.6 million for the purchase of 83 tabbing systems,
                               accessories, and training.




                                                    1
                                         Restricted Information
Use of Noncompetitive Contracting Process for                                      CA-AR-02-005
 Tabbing Systems Purchases



 Objective, Scope,             Our objective was to determine whether the use of the
 and Methodology               noncompetitive purchasing process was the most effective
                               method for purchasing the tabbing systems.

                               The universe consisted of 43 noncompetitive contracts
                               totaling approximately $11.6 million for the purchase of
                               83 tabbing systems, accessories, and training. We
                               reviewed these contract files, supporting documentation,
                               and applicable policies and procedures.

                               To determine if the Postal Service could have purchased
                               comparable systems, we obtained and compared prices
                               from suppliers for comparable systems to the
                               noncompetitive contract prices, and discussed these results
                               with Postal Service automation engineers.

                               To determine if the systems were being used effectively
                               and efficiently, we conducted interviews with Postal Service
                               purchasing staff and in-plant support managers and
                               observed tabbing system operations at processing and
                               distribution centers in the Great Lakes Area.

                               We conducted the audit from June 2001 through
                               September 2002 in accordance with generally accepted
                               government auditing standards. We reviewed management
                               controls over the noncompetitive contracting process. We
                               discussed our conclusions and observations with
                               appropriate management officials and included their
                               comments, where appropriate.

 Prior Audit Coverage          We did not identify any prior audits or reviews related to the
                               objective of this audit.




                                                    2
                                         Restricted Information
Use of Noncompetitive Contracting Process for                                                 CA-AR-02-005
 Tabbing Systems Purchases


                                         AUDIT RESULTS

    Noncompetitive        The use of the noncompetitive purchasing process was not
    Process Not Effective the most effective method for purchasing tabbing systems.
                          Specifically, Postal Service officials provided justifications
                          that were not valid to support the noncompetitive
                          purchases, and purchases were not consolidated to ensure
                          quantity discounts. This occurred because Postal Service
                          officials did not conduct adequate market research and did
                          not consult automation equipment engineers regarding
                          alternative tabbing systems, field testing, and safety
                          matters before purchasing the systems. Additionally, the
                          noncompetitive purchasing policy does not require
                          purchasing offices to consolidate purchases to take
                          advantage of quantity discounts. As a result, the Postal
                          Service paid approximately $7.2 million more than they
                          would have if they purchased comparable competitive
                          tabbing systems and lost the opportunity to take
                          $130,000 in quantity discounts.

    Purchase Justifications     Justifications provided to support the noncompetitive
    Not Valid                   purchase of the 83 tabbing systems were not valid.
                                Specifically, written justifications were exactly the same for
                                all 43 contracts awarded and could not be supported. The
                                Postal Service justified all of these contracts based on
                                “urgent and compelling need” and “only source available.”
                                Postal Service policy allows for noncompetitive purchases
                                in these circumstances.1 However, we determined that the
                                need was not urgent because the contracts were awarded
                                over a 3-year period (as shown in Table 1) and alternate
                                tabbing systems were available at the time of these
                                purchases.




1
  Current Management Instruction PM-2.1.6-2002-2, Noncompetitive Purchases and Prior Management
Instruction AS-710-97-1, Noncompetitive Purchases.



                                                     3
                                          Restricted Information
Use of Noncompetitive Contracting Process for                                                       CA-AR-02-005
 Tabbing Systems Purchases



                                                    Table 1
                               Noncompetitive Contract Awards for Tabbing Systems

                                 Contract               Number of     Contract                   Number of
                                  Award       PMSC*     Systems        Award        PMSC*        Systems
                                  11-Sep-97 Denver          1
                                  25-Mar-98 Denver          2         22-Aug-98     Denver          1
                                   8-May-98 Denver          3         22-Aug-98     Denver          1
                                   8-May-98 Denver          2         22-Aug-98     Denver          1
                                  22-May-98 Denver          2         23-Aug-98     Denver          1
                                  29-May-98 Denver          2         23-Aug-98     Denver          1
                                  29-May-98 Denver          1         23-Aug-98     Denver          1
                                  23-Jun-98    Dallas       1         23-Aug-98     Denver          1
                                  23-Jun-98    Dallas       1           8-Sep-98   Memphis          1
                                  23-Jun-98    Dallas       1         11-Sep-98     Denver          1
                                  23-Jun-98    Dallas       1         11-Sep-98     Denver          1
                                  23-Jun-98    Dallas       1         29-Dec-98 San Francisco       1
                                  23-Jun-98    Dallas       1         25-May-99    Minnesota        3
                                  23-Jun-98    Dallas       1         27-May-99    Hoboken          1
                                  23-Jun-98    Dallas       1          25-Jun-99 San Francisco      1
                                  23-Jun-98    Dallas       1          29-Jun-99    Denver          1
                                  24-Jun-98    Dallas       1           2-Feb-00   Hoboken          7
                                    8-Jul-98 Denver         1          28-Feb-00   Minnesota        6
                                  10-Aug-98 Denver          1          23-Mar-00 San Francisco      1
                                  20-Aug-98 Denver          1         22-Aug-00    Minnesota        5
                                  21-Aug-98 Denver          1           7-Sep-00   Memphis          7
                                  22-Aug-98 Denver          1           8-Sep-00    Chicago         12
                               * Purchasing and Materials Service Center.

                               This occurred because Postal Service officials did not
                               conduct adequate market research. Also, the
                               noncompetitive purchasing policy did not require Postal
                               Service managers to coordinate with automation equipment
                               engineers when purchasing automation equipment.

                               Postal Service policy states that market research is
                               essential to optimize the potential use of commercial items
                               and services to meet Postal Service needs. Market
                               research provides Postal Service officials a general sense
                               of the characteristics and capabilities of products and
                               services available in the market, the extent of competition in
                               the market, price trends, and current market prices.

                               Market research for the tabbing systems was limited and
                               did not consider applicable engineer input. Specifically, in
                               1997, the Denver Purchasing and Materials Service Center
                               advertised for competitive offers on two different occasions.


                                                       4
                                            Restricted Information
Use of Noncompetitive Contracting Process for                                     CA-AR-02-005
 Tabbing Systems Purchases


                               The first advertisement was in the Commerce Business
                               Daily for a lease of one tabbing system. The
                               second advertisement was for sources sought in
                               connection with procuring a minimum of ten tabbing
                               systems. According to Postal Service officials, only one
                               company responded to the second advertisement. Postal
                               Service officials used this 1997 research as a basis to
                               purchase tabbing systems through the end of 2000.

                               We did not find evidence that Postal Service officials
                               performed any other market research. However, we
                               conducted market research and found that during the
                               period the tabbing systems were purchased, other suppliers
                               were offering equipment with comparable functional
                               specifications for prices that ranged from $31,000 to
                               $64,000 per unit.

                               We also found that an automation equipment mechanical
                               engineer independently assessed a comparable,
                               competitive tabbing system but was not consulted
                               regarding alternative tabbing systems, field testing, or
                               safety matters before the systems were purchased.

                               In addition, subsequent to the purchase of the tabbing
                               systems, Postal Service engineers determined the
                               supplier’s prices were excessive. In March 2000, after
                               59 systems had been purchased, the manager of Flat Mail
                               Technology instructed his mechanical engineer to review
                               the safety and performance of the tabbing system and list it
                               in the Engineering Supported Catalog of Approved
                               Products. This catalog provides Postal Service
                               organizations with a recommended list of commercially
                               available equipment that has been prequalified and
                               approved by the engineering organization. The
                               qualification and approval process considers such factors
                               as source, product, performance, cost, quality assurance,
                               safety, health, and ergonomics to determine best value at
                               reasonable prices. The tabbing systems were included in
                               the catalog in September 2001 with a note that the
                               supplier’s prices were excessive.

                               Had adequate market research been performed, the Postal
                               Service could have purchased the same number of
                               comparable tabbing systems at a significant savings.
                               Instead, the Postal Service awarded 43 noncompetitive



                                                    5
                                         Restricted Information
Use of Noncompetitive Contracting Process for                                                       CA-AR-02-005
 Tabbing Systems Purchases


                                  contracts totaling approximately $11.6 million to purchase
                                  83 tabbing systems.2 We conducted market research and
                                  found that during the period the tabbing systems were
                                  purchased, other suppliers were offering equipment with
                                  comparable functional specifications for prices that ranged
                                  from $31,000 to $64,000 per unit. A Postal Service
                                  mechanical engineer validated that the systems we
                                  identified were comparable to the tabbing systems
                                  purchased. Using a system that costs $53,000 per unit,3
                                  the Postal Service would have paid approximately
                                  $4.4 million. This would have resulted in approximately
                                  $7.2 million in savings.

    Purchases Not                 Purchasing personnel did not consider consolidating
    Consolidated to               tabbing system purchases to take advantage of quantity
    Ensure Quantity               discounts. This occurred because noncompetitive
    Discounts                     purchasing policies and procedures did not require
                                  consolidation. However, in July 1998, the vice president,
                                  Purchasing and Materials,4 issued direction to consolidate
                                  tabbing system purchases in order to get appropriate
                                  quantity discounts for the tabbing system purchases.
                                  Conversely, as previously shown in Table 1, purchasing
                                  personnel awarded 36 separate contracts procuring less
                                  than three tabbing systems, awarded nine contracts on the
                                  same day for one system each, and missed opportunities to
                                  take advantage of $130,000 in quantity discounts.

                                  Postal Service personnel explained that this type of
                                  repetitive and individual noncompetitive buying should not
                                  happen in the future. They stated that the new Supply
                                  Management organization has services portfolios and
                                  category management centers that create and maintain
                                  national buys of supplies, services, and equipment, such as
                                  tabbing systems. They also explained that requirements of
                                  this nature must be sent to one purchasing office--the Mail
                                  Equipment Portfolio (which handles Automation Material
                                  Handling equipment such as tabbing systems). This
                                  purchasing office will then consolidate requirements to take
                                  advantage of available quantity discounts. These


2
  Tabbing systems prices at this supplier increased from $99,500 to $120,000 per unit in calendar year 1999.
Contracts include training and accessories. Some purchasing offices took advantage of quantity discounts.
3
  The mechanical engineer estimated the cost of the tabbing system to be $50,000 per unit. For verification, he
contacted a company who then submitted a proposal for a tabbing system at a cost of approximately $53,000 per
unit.
4
  Effective June 3, 2002, Purchasing and Materials was restructured as Supply Management.



                                                        6
                                             Restricted Information
Use of Noncompetitive Contracting Process for                                       CA-AR-02-005
 Tabbing Systems Purchases


                               procedures are stated in Management Instruction, PM-1.11-
                               2002-4, Submitting Purchase Requests to Supply
                               Management, effective July 11, 2002.

 Recommendations               We recommend the vice president, Supply Management:

                                   1.	 Require purchase teams to ensure that justifications
                                       provided in support of noncompetitive purchases
                                       are valid by:

                                           a.	 Ensuring thorough market research is
                                               performed before using the noncompetitive
                                               purchasing process.

                                           b.	 Ensuring Postal Service automation
                                               equipment engineers have the opportunity to
                                               assess automation equipment before using
                                               the noncompetitive purchasing process and
                                               investing significant funds.

                                   2.	 Revise the Postal Service Purchasing Manual to
                                       require purchase teams to consolidate purchases in
                                       order to take advantage of available quantity
                                       discounts, to the maximum extent possible.

 Management’s                  Management agreed with recommendations 1 and 2.
 Comments                      Management stated that their new organizational structure
                               supports these recommendations. The Supply
                               Management organization has been aligned with the
                               Engineering automation equipment support group to better
                               manage automation equipment purchases. In addition,
                               management stated that Postal Service policy already
                               supports consolidating purchases so further revisions are
                               not necessary. However, there may be cases where they
                               still will have to rely on their client’s expertise and
                               professionalism.

                               Management will disseminate these recommendations,
                               within 30 calendar days of receipt of the final report, to the
                               appropriate managers for implementation.

                               Management, however, does not agree with our finding that
                               the noncompetitive process was ineffective for the first
                               27 systems purchased and the Postal Service paid
                               approximately $7.2 million more than they would have if



                                                    7
                                         Restricted Information
Use of Noncompetitive Contracting Process for                                     CA-AR-02-005
 Tabbing Systems Purchases


                               they purchased comparable competitive tabbing systems.
                               Management indicated that the initial 27 tabbing systems,
                               purchased between March and September 1998, were
                               made only after market research, including public notice in
                               the Commerce Business Daily and discussions with
                               alternate sources. Management also stated that they
                               contacted Postal Service Engineering in 1998 regarding the
                               tabbing systems purchases.

 Evaluation of                 Management’s comments are responsive to
 Management’s                  recommendations 1 and 2. Although management is not
 Comments                      revising the Purchasing Manual, they have identified
                               consolidating purchases as a key consideration in strategic
                               sourcing and demand management. Management’s
                               planned action should correct the issues identified in the
                               report.

                               Regarding management’s comments on the finding, the
                               OIG believes the audit results support the assertion that the
                               noncompetitive process was ineffective for all 83 systems
                               purchased and that the Postal Service could have saved
                               approximately $7.2 million. The limited market research the
                               Postal Service conducted did not determine suppliers
                               available or whether prices were realistic, as required by
                               Postal Service policy. Additionally, Postal Service
                               Engineering was not consulted regarding alternative
                               tabbing systems, field testing, and safety matters before
                               purchasing the tabbing systems. Subsequently, when
                               consulted, Postal Service Engineering found that the
                               supplier’s prices were excessive.

 Recommendation                We recommend the vice president, Engineering:

                                   3. Remove the tabbing system from the Engineering
                                      Supported Catalog of Approved Products.

 Management’s                  Management agreed with this recommendation and
 Comments                      removed the tabbing system from the Engineering
                               Supported Catalog of Approved Products in
                               September 2002.

 Evaluation of                 Management’s action is responsive to our recommendation
 Management’s                  and the actions taken should correct the issue identified in
 Comments                      the report.




                                                    8
                                         Restricted Information
Use of Noncompetitive Contracting Process for                                                             CA-AR-02-005
 Tabbing Systems Purchases



 Tabbing Systems               We found that 30 of the 83 tabbing systems purchased
 Unused and                    noncompetitively were not being used or were
 Underutilized                 underutilized. Specifically, as shown in Table 2, 11 tabbing
                               systems were not being used and 19 were processing less
                               than 50 percent of projected volumes.

                                                        Table 2
                                        Unused and Underutilized Tabbing Systems

                                 Colorado Springs, Colorado                               0      6,816             0
                                 Trenton, New Jersey*                                     0      6,816             0
                                 Greensboro, North Carolina                               0     51,655             0
                                 Kinston, North Carolina                                  0     11,364             0
                                 Duluth, Georgia                                          0      3,881             0
                                 Chicago, Illinois                                        0      1,542             0
                                 Colorado Springs, Colorado                               0      6,816             0
                                 New Orlean, Louisiana                                    0     14,170             0
                                 Capital Height, Maryland**                             19       3,881             0
                                 Dallas, Texas**                                       159      14,170             0
                                 San Diego, California**                                69       6,000             0
                                 Long Beach, California                              1,545      21,645             7
                                 Melville, New York                                    618       6,816             9
                                 Asheville, North Carolina                             462       5,165             9
                                 Fox Valley, Illinois                                1,459      13,568            11
                                 South Suburban, Illinois                              977       8,644            11
                                 New York, New York                                    763       6,816            11
                                 Tucson, Arizona                                     1,179       6,816            17
                                 Little Rock, Arkansas                               3,437      14,170            24
                                 Tulsa, Oklahoma                                     4,044      14,170            29
                                 Madison, Wisconsin                                  1,246       3,820            33
                                 Ft. Worth, Texas                                    5,108      14,170            36
                                 Oklahoma City, Oklahoma                             5,417      14,170            38
                                 Carol Stream, Illinois                              2,216       5,751            39
                                 Lansing, Michigan                                   7,925      19,758            40
                                 Austin, Texas                                       5,678      14,170            40
                                 Sioux Fall, South Dakota                            1,754       4,075            43
                                 Cheyenne, Wyoming                                   3,370       6,816            49
                                 Santa Ana, California                              20,023      40,816            49
                                 Reno, Nevada                                        3,336       6,816            49

                               * Location closed due to the anthrax threat in October 2001; however, tabbing system 

                               was not being used prior to threat.

                               **Non-usage includes percentages at or below 1 percent.



                               This occurred because Postal Service officials did not
                               perform a thorough needs analysis before purchasing the
                               equipment. Additionally, projections in the Decision
                               Analysis Reports were not supported, Decision Analysis
                               Reports or justifications were not independently verified,
                               and many tabbing systems had operational issues.




                                                      9
                                           Restricted Information
Use of Noncompetitive Contracting Process for                                      CA-AR-02-005
 Tabbing Systems Purchases


                               The data and assumptions included in the Decision
                               Analysis Reports were not supported. We found occasions
                               where input from operational personnel was either not
                               solicited or disregarded. Specifically, at four sites visited,
                               in-plant support managers stated and records showed that
                               some sites do not receive much, if any mail requiring tabs.
                               However, projected volumes in the Decision Analysis
                               Reports were significant.

                               The Decision Analysis Reports or justification themselves
                               were not validated. Independent verification of the
                               accuracy and integrity of statements, assumptions, and
                               data presented in support of the project, as required by
                               Postal Service Handbook F-66, General Investment
                               Policies and Procedures, was not performed.
                               Consequently, the Postal Service will not achieve projected
                               returns on investment.

                               In addition, we found operational issues involving the
                               tabbing systems that may decrease the productivity of the
                               tabbing system process and compromise safety and
                               reliability:

                                   •	 Some systems were not running effectively due to
                                      mechanical problems.

                                   •	 Some systems were not located on the workroom
                                      floor, were in a storage room, or noted as excess
                                      equipment.

                                   •	 One system destroyed mail during the tabbing
                                      process.

                                   •	 One location identified safety problems with its
                                      system and removed it from service within a year
                                      after purchase.

                                   •	 Some locations do not use the system because of
                                      lack of dependability.

                                   •	 One location identified its tabbing system as worn
                                      out.




                                                   10
                                         Restricted Information
Use of Noncompetitive Contracting Process for                                       CA-AR-02-005
 Tabbing Systems Purchases


                                   •	 Several locations stated that the system is not totally
                                      automated; two people are required to operate the
                                      system.

 Recommendations               We recommend the senior vice president, Operations:

                                   4.	 Ensure maximum use and return on investment
                                       from tabbing systems by:

                                           a.	 Conducting a thorough needs analysis to
                                               identify facilities where tabbing systems are
                                               needed.

                                           b.	 Relocating the unused and underutilized
                                               systems to those facilities.

                                   5.	 Require approving managers to ensure that
                                       assumptions included in Decision Analysis Reports
                                       are independently verified.

 Management’s                  Management agreed with our recommendations and has
 Comments                      begun redeploying tabbing systems that are unused and
                               underutilized. Management will continue redeploying
                               unused and underutilized systems after reviewing utilization
                               and potential opportunities to capture candidate mail at the
                               plants. Management plans to complete this action by the
                               end of April 2003.

                               Management will also require approving officials to ensure
                               that assumptions included in the Decision Analysis Reports
                               are independently verified.

 Evaluation of                 Management’s comments are responsive to
 Management’s                  recommendations 4 and 5. Management’s actions taken or
 Comments                      planned, should correct the issues identified in the report.




                                                   11
                                         Restricted Information
Use of Noncompetitive Contracting Process for                     CA-AR-02-005
 Tabbing Systems Purchases


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                   12
                                         Restricted Information
Use of Noncompetitive Contracting Process for                     CA-AR-02-005
 Tabbing Systems Purchases




                                                   13
                                         Restricted Information
Use of Noncompetitive Contracting Process for                     CA-AR-02-005
 Tabbing Systems Purchases




                                                   14
                                         Restricted Information
Use of Noncompetitive Contracting Process for                     CA-AR-02-005
 Tabbing Systems Purchases




                                                   15
                                         Restricted Information
Use of Noncompetitive Contracting Process for                     CA-AR-02-005
 Tabbing Systems Purchases




                                                   16
                                         Restricted Information
